Office of Inspector General
      Audit Report


TIMELY AND TARGETED FMCSA ACTION IS
 NEEDED TO FULLY ADDRESS NATIONAL
   TRANSPORTATION SAFETY BOARD
  RECOMMENDATIONS FOR IMPROVING
   PASSENGER CARRIER OVERSIGHT
   Federal Motor Carrier Safety Administration

          Report Number: MH-2012-087
           Date Issued: April 17, 2012
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Timely and Targeted FMCSA Action                                     Date:    April 17, 2012
           Is Needed To Fully Address National
           Transportation Safety Board Recommendations for
           Improving Passenger Carrier Oversight
           Federal Motor Carrier Safety Administration
           Report No. MH-2012-087

  From:    Joseph W. Comé                                                            Reply to
                                                                                     Attn. of:   JA-40
           Assistant Inspector General for
             Highway and Transit Audits

    To:    Federal Motor Carrier Safety Administrator

           In recent years, several fatal motorcoach accidents focused national attention on
           passenger carrier safety and the Federal Motor Carrier Safety Administration's
           (FMCSA) oversight of more than 3,000 passenger carrier companies that operate
           millions of trips per year. Following a January 2008, motorcoach accident near
           Victoria, Texas, in which 1 passenger was killed and 47 others were injured, the
           National Transportation Safety Board (NTSB) identified weaknesses in Federal
           oversight of passenger carriers. 1 NTSB cited concerns with FMCSA’s process for
           vetting passenger carriers and detecting reincarnating carriers—carriers that
           attempt to operate as a different entity in an effort to evade enforcement action,
           out-of-service orders, or both. NTSB also highlighted issues with how the
           National Highway Traffic Safety Administration (NHTSA) and FMCSA oversee
           passenger carrier compliance with Federal Motor Vehicle Safety Standards
           (FMVSS). In its final report on the Victoria crash, NTSB made a series 2 of
           recommendations to improve Federal oversight of passenger carriers. In particular,
           NTSB recommended that FMCSA review multiple years of applications for
           Federal operating authority to identify reincarnated carriers, issue new rules to
           strengthen its capabilities to oversee the passenger carrier industry, and enhance its
           oversight efforts related to enforcing FMVSS.

           1
               Motorcoach Rollover on U.S. Highway 59 Near Victoria, Texas, January 2, 2008, Highway Accident Report
               NTSB/HAR-09/03/SUM (Washington, DC: National Transportation Safety Board, 2009), which is available on the
               NTSB Web site at http://www.ntsb.gov/doclib/reports/2009/HAR0903.pdf.
           2
               NTSB made 10 recommendations to FMCSA, 2 to NHTSA, and 1 to the Department of Transportation.
                                                                                                                 2


Based on congressional concerns about the actions FMCSA has taken to address
NTSB’s recommendations, 3 we initiated this audit to assess FMCSA’s efforts to
(1) detect and deter reincarnated motor carriers; (2) revise regulations, implement
new rulemakings, or obtain increased statutory authority to strengthen passenger
carrier safety; and (3) better identify and track passenger carriers whose vehicles
do not comply with FMVSS.

We conducted this review between December 2010 and February 2012 in
accordance with Government auditing standards. Exhibit A provides more details
on our scope and methodology, and exhibit B provides a brief overview of
FMCSA’s response to each of NTSB’s recommendations.

BACKGROUND
A summary of the recommendations that Congress asked us to review is listed in
table 1 on the next page, and the recommendations are provided in full with
FMCSA’s responses in exhibit B.




3
    The House of Representatives Committee Report 111-564, accompanying H.R. 5850, the Departments of
    Transportation, Housing and Urban Development, and Related Agencies Appropriations Bill, 2011, included
    language requesting that the Department of Transportation Office of Inspector General assess FMCSA’s actions to
    implement selected NTSB recommendations related to the Texas crash.
                                                                                3




Table 1. Summary of NTSB Recommendations That Congress Asked
Us To Review
NTSB Recommendation Type          Description
Detect and deter reincarnated     • Vet passenger carriers that obtained
motor carriers.                      operating authority since 2003.
(1 recommendation)

Revise regulations, implement     • Revise regulations to make passenger
new rulemakings, or seek            carriers subject to the same equipment
additional statutory authority.     leasing limitations as property carriers.
(3 recommendations)               • Seek statutory authority to deny or revoke
                                    operating authority for reincarnated carriers
                                  • Require reviews of passenger carrier lease
                                    agreements.

Better identify and track         • Assist NHTSA in developing a database of
passenger carriers whose            FMVSS-compliant passenger carrying
vehicles do not comply with         commercial motor vehicles that may be used
FMVSS.                              by enforcement officials to identify and put
(5 recommendations)                 noncompliant vehicles out of service.
                                  • Require inspectors to use the database.
                                  • Require training for enforcement officials
                                    on physically inspecting passenger carrying
                                    commercial motor vehicles for FMVSS
                                    compliance labels.
                                  • Require passenger carriers to certify that all
                                    vehicles they use met FMVSS when
                                    manufactured.
                                  • Seek statutory authority to suspend, revoke,
                                    or withdraw the operating authority of
                                    motor carriers operating non-FMVSS-
                                    compliant vehicles.
Source: OIG generated table

FMCSA’s primary mission is to reduce commercial motor vehicle related fatalities
and injuries through regulatory enforcement, risk mitigation, technological
advancements, and safety awareness. One FMCSA program intended to improve
passenger carrier oversight is the New Entrant Safety Assurance Program, which
                                                                                                                       4


focuses on newly registered 4 motor carriers. According to the Volpe National
Transportation Systems Center, the crash rate for new entrant motor carriers is
25 percent higher than the rate for experienced carriers. 5 Through the New Entrant
Safety Assurance Program, FMCSA provides information to newly registered
carriers, including passenger carriers, on motor carrier safety standards and
regulations. Additionally, through safety audits, FMCSA evaluates the operational
safety of all new carriers by determining whether they are complying with Federal
Motor Carrier Safety Regulations (FMCSR). The safety audits include questions
designed to help auditors identify reincarnated carriers. If a new carrier
demonstrates compliance with the regulations, FMCSA allows the carrier to leave
the New Entrant Safety Assurance Program. FMCSA continues to monitor carriers
after they complete the New Entrant Safety Assurance Program for as long as the
carriers are in operation.

The passenger carrier vetting process, which includes efforts to detect reincarnated
carriers, is not a part of the New Entrant Safety Assurance Program. The vetting
process is carried out under a separate section of FMCSA’s authority (see
exhibit C for a diagram of the vetting process and the separate New Entrant Safety
Assurance Program activities). Nonexempt motor carriers 6 engaging in interstate
operations must also apply for operating authority. The operating authority
application process for passenger carriers includes vetting applicants to identify
potential reincarnated carriers using the passenger carrier vetting process. In fiscal
year 2010, FMCSA granted operating authority to 745 of 1,153 passenger carrier
applicants. If, after receiving operating authority, a carrier does not demonstrate
compliance with FMCSR, FMCSA takes enforcement action against the carrier,
which can include placing the carrier out of service.

RESULTS IN BRIEF
Even before NTSB made its recommendations related to the Victoria crash,
FMCSA had a vetting process in place to detect reincarnating passenger carriers
by reviewing applicants for operating authority. FMCSA responded to NTSB’s
recommendations by applying this vetting process to all passenger carriers that
obtained operating authority since 2003. However, FMCSA still does not have an
efficient screening tool as part of the vetting process to help it focus limited
investigative resources on the highest risk applicants—instead of reviewing all
applications as it does now. Specifically, FMCSA discovered that a key element of

4
     Motor carriers register with the U.S. Department of Transportation by completing the MCS-150 form and meeting
     associated requirements. Upon meeting those requirements, the new carriers are assigned a U.S. Department of
     Transportation registration number.
5
    “New Entrant Safety Assurance Process, Final Rule.” Federal Register Vol. 73, No. 242 (December 16, 2008)
     p.76483.
6
     Nonexempt motor carriers refer to for-hire motor carriers that are not exempt from the Secretary’s jurisdiction. All
     nonexempt motor carriers are required to obtain FMCSA operating authority.
                                                                                                                        5


the process—a screening tool that compares data FMCSA collects from carriers—
did not efficiently identify the highest risk carriers because it produced unreliable
scores. The screening tool has at times assigned lower scores 7 to carriers who were
more likely to be reincarnations than those with high scores because they shared
company officers or other essential characteristics. When FMCSA found it could
not rely on the scores to efficiently identify the highest risk applicants, it began to
manually review all applicants with matches to preexisting carriers to ensure that
no possible reincarnations were overlooked. To date, FMCSA has not
implemented a revised screening tool to focus its limited investigative resources
on the highest risk applicants. As a result, if FMCSA expands the vetting process
beyond passenger carriers to all motor carriers and does not develop a more risk-
based approach, its existing backlog of applications waiting to be reviewed will
likely increase significantly.

FMCSA has begun work on two new rules to address the oversight concerns on
passenger carrier leases and revocation of reincarnated carrier operating authority.
In November 2011, FMCSA published a schedule for developing a leasing rule for
passenger carriers, but does not expect to release it as a proposed rule as NTSB
recommended, until June 2012. Until this rule is finalized, passenger carriers, such
as the one involved in the Victoria crash, may be able to circumvent FMCSA
oversight by establishing a lease agreement with another carrier and conducting
business using the other carrier’s operating authority. 8 In addition, FMCSA has
not issued a final rule that will fully address NTSB’s recommendation to revoke
the operating authority of reincarnated carriers. Currently, FMCSA uses a process
to revoke the operating authority of reincarnated carriers through investigation and
administrative prosecution of those carriers, based on the laws of individual States.
However, the process is cumbersome because of the time involved in collecting
evidence to meet State specific rules on corporate successorship. 9 To establish a
more efficient process, FMCSA published a notice of proposed rulemaking in
December 2011 that will allow it to put reincarnated carriers out of service and
establish a single Federal standard for determining whether a carrier is a
reincarnation of a preexisting entity. While FMCSA successfully issued other
regulations in the past year to improve both truck and bus safety, one of these rules
was under development for more than 10 years and another was based on technical



7
    During the first phase of the vetting process, the new applicant screening tool generates a score based on identifying
    matches between data from applicants and suspect carriers (e.g., company officers having the same name). As
    originally designed, a high score indicates a closer match between an applicant and a suspect carrier, indicating these
    applications warrant further review by FMCSA staff.
8
    FMCSA requires property carriers to have written leases outlining the responsibility for vehicles, duration of lease,
    and compensation. Copies of this documentation must be maintained with the authorized carrier and the lessor or
    owner and in the vehicle.
9
    Corporate successorship is the transferability of corporate liability from one entity to another.
                                                                                                                    6


specifications that the courts subsequently overturned, 10 illustrating the importance
of sustained management attention in the rulemaking arena.

FMCSA and NHTSA have not implemented NTSB’s recommendations on
developing the capability to better identify and track passenger carriers whose
vehicles do not comply with FMVSS. 11 NTSB recommended a series of actions to
close a safety oversight gap that allows a vehicle, such as the motorcoach in the
Victoria accident, to pass a roadside or periodic inspection focused on compliance
with FMCSA’s operational regulations 12 even if the vehicle does not comply with
the manufacturing standards in the FMVSS. NTSB recommended that FMCSA
track vehicles’ compliance with FMVSS using a database developed with
NHTSA, and put vehicles out of service that are noncompliant with FMVSS. In
response, FMCSA cited concerns that any safety benefits from such action would
be minimal, and instead proposes to continue its enforcement of existing safety
regulations including those related to FMVSS through its commercial vehicle
inspection program. FMCSA is also working with NHTSA and NTSB, U.S.
Customs and Border Protection (CBP), and the Office of the Secretary of
Transportation to develop alternative approaches. For example, FMCSA is
considering the integration of the training that NHTSA offers on visual detection
of FMVSS compliance into training offered to FMCSA staff. While we recognize
that NHTSA and FMCSA have legitimate concerns, their proposed actions do not
address the safety oversight gap NTSB identified or focus enforcement on the
highest risk locations. FMCSA could act now to target high risk locations or
carriers using its inspection data. For example, we found that only six carriers
geographically concentrated in Texas and other southern States were responsible
for more than 500 FMVSS-related violations each, which suggests a need for a
more risk-based approach to targeting FMVSS enforcement.

We are making a series of recommendations to improve FMCSA’s passenger
carrier vetting process and oversight of passenger carriers.




10
     FMCSA issued a final rule in May 2011 requiring a learner’s permit as part of the commercial driver’s license
     process and a notice of proposed rulemaking in February 2011 expanding the electronic on-board recorder rule. The
     electronic on-board recorder rule was based on technical specifications from another rule that was subsequently
     rejected, but in February 2012 FMCSA published a notice of intent to work with stakeholders to proceed with the
     rulemaking process in this area.
11
     The FMVSS are manufacturing standards written in terms of minimum safety performance requirements for
     commercial motor vehicles and equipment.
12
     Federal Motor Carrier Safety Regulations contain requirements carriers, drivers, and commercial motor vehicles
     must meet while in operation.
                                                                                                         7


FMCSA’S VETTING PROCESS DOES NOT EFFICIENTLY
IDENTIFY THE HIGHEST RISK APPLICANTS
FMCSA’s passenger carrier vetting process, implemented prior to NTSB’s final
report on the Victoria crash, identifies passenger carriers attempting to reincarnate,
but does not have an efficient screening tool that would help FMCSA focus
investigative resources on the highest risk applicants. In response to an NTSB
recommendation to apply the vetting process to all passenger carriers that applied
for operating authority, FMCSA went back and vetted passenger carriers that
applied for operating authority after the New Entrant Safety Assurance Program
began in 2003. However, after FMCSA applied the vetting process, as originally
designed, to this older group of applicants, it found it could not rely on the scores
generated by the screening tool to efficiently flag those applicants most likely to
be reincarnated carriers. Therefore, FMCSA’s vetting process now involves
conducting time-consuming, labor-intensive reviews of all applicant matches. An
enhanced screening tool could permit targeting of investigative resources to high-
risk applicants.

FMCSA Vetted Passenger Carrier Applicants as NTSB Recommended
FMCSA implemented a vetting process in 2008. As originally designed,
FMCSA’s vetting process included a screening tool that generated scores to
identify potential reincarnated carriers. All passenger carriers applying for
interstate operating authority are vetted and those that pass obtain operating
authority. A component of the vetting process, the new applicant screening tool,
compares the carrier’s application data to suspect carrier data and generates a
score of 0 to 100 for each applicant, based on the number and type of matches
found between the new applicant and the suspect carrier. FMCSA used these
scores to determine which applicants with matches it would review.

In its 2009 report, NTSB recommended that FMCSA apply its vetting process to
passenger carriers who submitted applications for operating authority before 2008.
In 2010, FMCSA responded to this recommendation by vetting passenger carriers
who applied for operating authority from January 2003 through August 2009.
FMCSA limited the number of matches examined during this review to those with
a score above 89, which restricted its review to 237 of 2,690 applicants, or
9 percent of the applicants. Of the 237 potential reincarnated carriers, FMCSA
identified 4 applicants that warranted an investigation—with 1 resulting in
enforcement action. Based on FMCSA’s actions, NTSB closed its
recommendation. 13



13
     NTSB classified this recommendation as Safety Recommendation H-09-35, “Closed—Acceptable Action.”
                                                                                                                      8


FMCSA Modified Its Use of the Vetting Process Because It Does Not
Target High-Risk Applicants
FMCSA continues to use its vetting process, but recognized the limitations of the
scores generated by the screening tool after it conducted the review NTSB
recommended of old applicants. Consequently, FMCSA no longer uses the scores
when vetting new applicants because the scores do not adequately identify high-
risk applicants. Since 2010, FMCSA implemented the labor-intensive approach of
reviewing all new passenger carrier applicants with matches, regardless of their
scores, and is considering further modifications to the passenger carrier vetting
process.

Reviewing all new applicants with matches to suspect carriers to ensure no
reincarnations are overlooked is a labor-intensive process that does not maximize
limited investigative resources by targeting high-risk applicants. The screening
tool generates a large volume of matches by comparing 11 categories of applicant
data 14 with data from the suspect carriers. The majority of matches are to one of
four data categories—driver’s name, driver’s license number, license plate
number, and vehicle identification number (VIN). FMCSA recognized this and
deemphasized these four categories in the matching algorithm. In addition, some
of these categories, such as VIN, often produce faulty matches. Despite devaluing
the categories with common information, the screening tool still produces a
lengthy list of carrier suspect matches. For example, based on the analysis
FMCSA conducted of old applicants from January 2003 through August 2009, the
vetting process produced over 31,000 suspect matches for the 2,690 passenger
carrier applicants. Because of the small number of passenger carriers currently
applying for operating authority, FMCSA is able to employ this labor-intensive
approach, which could become unsustainable if the vetting process is expanded to
the entire—larger—population of all motor carriers seeking operating authority
(e.g., both passenger and property carriers).

This labor-intensive screening of all passenger carriers with matches has already
resulted in a small backlog of pending applications. However, FMCSA continues
to vet all new passenger carrier applicants for operating authority without using a
revised screening tool. From August 2008 through September 2011, FMCSA
received 3,256 applications for passenger carrier operating authority and rejected
693. FMCSA stated that it rejected two of the applications based on evidence that
the carriers were attempting to evade enforcement and the others because the
applicants failed to meet the safety fitness standard and were not willing and able
to comply with all applicable statutes and regulations. Of the 3,256 applicants,

14
     The 11 categories are: address, person’s name, company name, telephone number, driver’s license number, social
     security number, e-mail address, vehicle identification number, insurance policy number, driver’s name, and vehicle
     license plate number.
                                                                                                                   9


286 remain to be vetted. A report by the U.S. Government Accountability Office
in March 2012 detailed a methodology that could be used to enhance the current
screening tool. 15

FMCSA TOOK ACTION ON RULES NTSB RECOMMENDED TO
IMPROVE PASSENGER CARRIER OVERSIGHT, BUT THEY HAVE
YET TO BE IMPLEMENTED
FMCSA began the rulemaking process in September and December 2011 for two
rules to address the two oversight areas NTSB highlighted in its
recommendations—establishing passenger carrier leasing requirements and
revoking reincarnated carriers’ operating authority. However, given past delays on
rulemakings, these new rules may not be fully implemented for years without
timely and sustained management attention.

FMCSA Is Developing a Rule on Leasing Regulations for Passenger
Carriers
FMCSA does not have leasing regulations in place for passenger carriers, making
it difficult for enforcement officials to determine who is responsible for
motorcoach operation. FMCSA is developing a rule on leasing regulations for
passenger carriers, as NTSB recommended, although it does not plan to issue a
proposed rule until at least June 2012. A little over a third of the vehicles reported
by passenger carriers during recent FMCSA compliance reviews were leased.
FMCSA does, however, regulate lease agreements between interstate property
carriers 16 that require written documentation citing, among other things, the names
of the leasing agreement participants, duration of the lease, and who has control
and use of the equipment during the lease if the lessee has exclusive possession.
The lessee also assumes complete responsibility for the equipment. Further, a
Mexico-domiciled motor carrier may not lease its equipment to a U.S. carrier for
operations beyond the commercial zones near the U.S.-Mexico border.

In contrast to these rules for property carriers, FMCSA does not require passenger
carriers to create or maintain any documentation of lease arrangements that could
be checked by enforcement officials. This lack of documentation requirements
makes it difficult for enforcement officials to determine who is responsible for the
motorcoach or its operation. According to NTSB, the motorcoach company
involved in the Victoria, Texas, crash was effectively shielded from appropriate
FMCSA oversight because of a lease agreement with another company. NTSB

15
     “New Applicant Reviews Should Expand to Identify Freight Carriers Evading Detection.” U.S. Government
     Accountability Office. GAO-12-364 (March 2012).
16
     Property carriers must record lease agreements in writing and keep copies of lease-related documents with leased
     equipment. The regulations also specify insurance coverage requirements.
                                                                                                       10


determined that the lessor was operating independently from the lessee as a motor
carrier. Although the lessee had certified on its operating authority application that
it would have a system in place for safe operation of its commercial vehicles, it
failed to maintain operational control and oversight of the leased vehicles and
drivers.

FMCSA plans to initiate a rulemaking to establish passenger carrier leasing
requirements similar to those in place for property carriers. NTSB considers
FMCSA’s plan an acceptable response to its recommendation. 17 In November
2011, FMCSA included the rulemaking in the Report on DOT Significant
Rulemakings with an estimated June 12, 2012, notice of proposed rulemaking
publication date. However, given FMCSA’s past delays on other rulemakings, we
are concerned that the passenger carrier leasing rulemaking will not be completed
in a timely manner. For example, FMCSA missed the original target dates for
83 percent of the significant rulemakings listed in its rules report. 18 Seven of these
are at least 1 year overdue.

FMCSA Has Issued a Proposed Rule To Establish a Process for
Putting Reincarnated Carriers Out of Service
NTSB recommended that FMCSA seek statutory authority to deny or revoke
operating authority for commercial interstate motor carriers identified as
reincarnated carriers. Instead, in a December 2011 notice of proposed rulemaking,
FMCSA proposed a new process for putting reincarnated carriers out of service,
using its existing statutory authority. The proposed rule includes new procedures
to put reincarnated carriers out of service who demonstrate unwillingness or
inability to comply with safety regulations and consolidate FMCSA records on
both the reincarnated carrier and its previous incarnation, but it will not be
implemented until the often-lengthy rulemaking process is complete.

Under current rules and precedents, FMCSA can deny operating authority to
reincarnated carriers. However, to revoke the existing operating authority of a
reincarnated carrier, FMCSA must first prove that the carrier is a reincarnation of
a previous corporate entity by applying State-specific corporate successorship
rules. A July 2010 ruling 19 from the agency required FMCSA to defer to State
successorship laws when determining whether a trucking entity is a reincarnation
of an unsafe entity. This means that FMCSA must build its cases by collecting
evidence and making arguments tailored to the specific corporate sucessorship
standards in each of the 50 States and the District of Columbia. However, this

17
   NTSB classified this recommendation as Safety Recommendation H-09-33, “Open—Acceptable Response.”
18
   U.S. Department of Transportation, Report on DOT Significant Rulemakings, November 2011.
   http://regs.dot.gov/rulemakings/201111/report.htm
19
   The leading case on the issue of corporate successorship is FMCSA Docket Number: FMCSA-2004-17247 at 25,
   Order Denying Reconsideration in the Matter of Williamson Transport Co., Inc., July 20, 2010.
                                                                                                                    11


requirement may change. The new procedures for taking enforcement action
against reincarnated carriers that FMCSA proposed in the December notice
include a new Federal standard based on substantial continuity 20 for determining
whether a carrier is a reincarnation of an earlier entity. FMCSA must continue to
use this State-based process until its proposed rule is finalized and fully
implemented.

FMCSA stated that it expends significant investigative resources to prove
successorship for each reincarnated carrier according to the laws of the State in
which a carrier resides. While State laws vary significantly, FMCSA has brought
cases against reincarnated carriers using State corporate successorship standards,
and has developed guidance for prosecuting these cases. However, establishing an
agencywide standard, as proposed in the notice of proposed rulemaking, would
enable FMCSA to more efficiently and effectively stop reincarnated carriers from
operating.

FMCSA HAS NOT IMPLEMENTED NTSB’S RECOMMENDATIONS
ON FMVSS COMPLIANCE
FMCSA has not implemented NTSB’s recommendations to work with NHTSA to
improve compliance with FMVSS. Instead, it continues to enforce motor carrier
safety regulations, including those related to the FMVSS. NTSB highlighted an
oversight gap between FMCSA and NHTSA—vehicles can pass roadside or
periodic safety inspections that FMCSA or State officials conduct even if the
vehicles are not FMVSS-compliant. 21 For example, a vehicle that was not
manufactured in compliance with the standards for flame-retardant materials
established in the FMVSS, and thus did not carry an appropriate FMVSS label,
would not be cited during a roadside inspection. While NTSB did not quantify the
safety impact of this gap, it recommended that FMCSA and NHTSA close the gap
by changing or improving their respective processes to identify or track passenger
vehicles that do not comply with FMVSS. 22 FMCSA and NHTSA proposed
alternative actions to address the intent of these recommendations. FMCSA
continues its current practice of matching and cross listing selected FMVSS to
motor carrier safety regulations it enforced during roadside inspections—an
approach that is not designed to specifically identify or track passenger carriers

20
     The proposed rule includes factors (e.g., consideration exchanged for assets purchased or transferred, commonality
     of ownership, same physical address, commonality of nature or scope of operations) FMCSA officials may use to
     determine whether there is substantial continuity between a motor carrier and a preexisting entity such that one is
     merely a continuation of the other.
21
     NHTSA is responsible for enforcing the FMVSS, which are manufacturing standards. FMCSA is responsible for
     enforcing the Federal Motor Carrier Safety Regulations, which are operational standards, including those that
     incorporate FMVSS that can be tested during roadside inspections.
22
     FMVSS consist of standards for various types of commercial motor vehicles, but NTSB’s recommendation language
     and this audit focused on commercial passenger vehicles’ compliance with FMVSS.
                                                                                                              12


that fail to comply with FMVSS that are not cross listed to motor carrier safety
regulations. It is also considering whether to incorporate the same training that
NHTSA offers on visual detection of FMVSS compliance into training it offers
through the National Training Center.

NTSB Identified Issues Related to FMCSA’s Approach for Enforcing
Compliance with FMVSS
The motorcoach involved in the Victoria, Texas, crash passed a roadside
inspection for compliance with the FMCSR, although it had no FMVSS
certification label. NTSB concluded that the Federal Government does not have an
effective way to enforce FMVSS for passenger carriers in the absence of ensuring
that all vehicles have FMVSS certification labels or conducting inspections that
check vehicles’ compliance with all manufacturing standards. FMCSA maintains
that it may meet the intent of the National Traffic and Motor Vehicle Safety Act of
1966 regarding consistency between motor carrier safety regulations and
manufacturing standards by cross listing the FMVSS to the FMCSR. However,
according to NTSB, this does not meet the intent of the Act.

FMCSA does not evaluate, record, or track the FMVSS 23 compliance status of
commercial motor vehicles during roadside inspections. Instead, FMCSA has
identified the FMVSS that are critical to operational safety and can be checked
during roadside inspections—and incorporated them into the FMCSR. 24 FMCSA
has determined that cross listing the operational standards in the FMCSR with the
manufacturing standards in the FMVSS is the most effective means to ensure
motor carriers operate safe vehicles, rather than checking FMVSS certification
labels. For example, the FMCSR incorporate FMVSS on the number, type, and
configuration of exterior lights on a commercial motor vehicle, as shown in table 2
on the next page.




23
     FMVSS are manufacturing standards that prescribe minimum safety performance requirements for commercial
     motor vehicles and equipment.
24
     “Quick Reference Guide (2010 version) to Federal Motor Vehicle Safety Standards and Regulations,” National
     Highway Traffic Safety Administration. (February 2011) http://www.nhtsa.gov/staticfiles/rulemaking/pdf/FMVSS-
     QuickRefGuide-HS811439.pdf.
                                                                                                        13


Table 2. Examples of FMCSR Cross Listed to FMVSS

 FMCSR                         Title                   FMVSS                   Title
                                                                     Lamps, Reflective Devices,
     393.11         Lamps and Reflectors                  108
                                                                     and Associated Equipment
     393.4         Required Brake Systems                 105         Hydraulic Brake Systems
                    Parking Brakes (being
     393.41       revised to cover entire air             121              Air Brake Systems
                        brake system)
Source: OIG Analysis of FMCSR and FMVSS

NTSB asserted that there are fundamental problems in relying on cross listing the
FMVSS to the FMCSR. It stated that not all FMVSS can be tested roadside and
not all FMCSR violations are serious enough to place a vehicle out of service—
both of which decrease the likelihood that the vehicle in question will be brought
to the minimum safety standard. To close this gap in safety oversight, NTSB
recommended that FMCSA and NHTSA develop a Web-based database of
FMVSS compliant vehicles, establish requirements for using the database, conduct
training by physically inspecting vehicles in-use for FMVSS certification, and
require each passenger carrier to certify FMVSS compliance on its initial
operating authority application. Because NTSB did not consider FMCSA’s actions
responsive to its recommendations, its recommendations on FMVSS enforcement
remain open. 25

Opportunities Exist for FMCSA To Better Target FMVSS-Related
Violations and Expand Training
In April 2010, the Deputy Secretary of Transportation directed FMCSA and
NHTSA to respond to NTSB’s recommendations by determining, in coordination
with CBP, the feasibility and cost-effectiveness of developing and implementing a
process to detect in-use vehicles that do not comply with FMVSS. In their
responses to NTSB, FMCSA and NHTSA did not support developing a Web-
based FMVSS database, stating that such a database would not improve safety.
FMCSA noted that a certification label indicates only a vehicle’s compliance with
FMVSS at the time of manufacture, not after it is in operation. FMCSA
acknowledged that the FMVSS cross listed to the FMCSR are limited to those that
can be tested or checked during a visual inspection of the vehicle. According to
FMCSA, specific manufacturing standards that require performance testing, such
as vehicle braking performance requirements for stopping distance, involve
facilities and expertise that are not available at the roadside inspections.
Consequently, vehicles that do not meet these types of FMVSS would not be
25
     NTSB classified these recommendations as Safety Recommendations H-09-37 through -41, “Open—Unacceptable
     Response.”
                                                                                  14


detected during roadside inspections. While we recognize that FMCSA has
legitimate concerns about the feasibility of enforcing FMVSS during roadside
inspections, we identified opportunities for enhancing current enforcement efforts
by targeting areas and entities that are at a higher risk of containing or operating
non-FMVSS compliant vehicles.

Through their routine inspection activities, FMCSA and the States currently
enforce FMVSS that are cross listed to the FMCSR. These inspections have led to
citations for FMVSS-related violations. For example, our analysis of FMCSA’s
Motor Carrier Management Information System inspection data showed that in
2009, inspections of passenger carriers identified 19,039 FMCSR violations that
are cross listed to FMVSS. In 2010, 18,698 similar violations were reported. The
consistency in violations from 1 year to the next indicates that FMCSA has not
increased enforcement of FMVSS since NTSB issued its recommendations in late
2009.

We identified geographic patterns in the FMCSR violations cross listed to FMVSS
that could assist FMCSA and the States in targeting their enforcement actions and
oversight. For example, five of the six motor carriers with more than 500
violations of cross listed FMCSR in either calendar year 2009 or calendar year
2010 were domiciled in the southern United States, with the remaining carrier
domiciled in Mexico. Of the six carriers, three were domiciled in Louisiana and
the majority of their violations were identified in inspections enforcement officials
conducted in Texas. Notably, 36.7 percent of all violations in 2009 and 2010 were
identified during inspections conducted by Texas enforcement officials. The State
with the second largest number of these types of violations, California, had only
4.4 percent of the total. The concentration of violation activity in one State and
one region of the country could present FMCSA with an opportunity to target
inspection and training resources in those geographic areas.

NHTSA also did not support NTSB’s recommendations on developing and using a
database of FMVSS-compliant vehicles. As an alternative, NHTSA proposed
expanding the training it now provides to CBP officials at various ports of entry on
how to visually check FMVSS certification labels on vehicles imported for sale in
the United States. NHTSA proposed expanding this importation training to
FMCSA staff rather than building a database of FMVSS-compliant vehicles, as
NTSB recommended, because NHTSA does not require motor coach
manufacturers to inform it of the identity of vehicles manufactured to meet
FMVSS. FMCSA is considering incorporating this expanded importation training
into training already provided to FMCSA staff through its National Training
Center. This action could serve to help close the safety oversight gap NTSB
identified.
                                                                                15


CONCLUSION
Motorcoach safety has received increased scrutiny from Congress and the NTSB
and focused attention on FMCSA’s oversight of this dynamic industry. FMCSA is
taking action to improve oversight of passenger carriers, including steps that
address NTSB’s recommendations stemming from the fatal 2008 crash in Victoria,
Texas. However, FMCSA must follow through on the actions it has proposed and
continue seeking an acceptable approach to addressing the safety oversight gap
NTSB identified. Given that passenger carriers make up a small part of the
600,000 companies regulated by FMCSA, this is a significant challenge. Targeted
and risk-based actions will help FMCSA more efficiently identify and take
enforcement action against passenger carriers that pose safety risks.

RECOMMENDATIONS
We recommend that the Federal Motor Carrier Safety Administrator:

1. Strengthen the Federal Motor Carrier Safety Administration’s ability to
   identify and take action against reincarnated carriers by refining the new
   applicant screening tool to provide risk-based targeting of operating authority
   applicants that are likely to be reincarnations of suspect passenger carriers.

2. Publish a final rule on passenger carrier leasing with requirements similar to
   those for property carriers.

3. Publish a final rule establishing Federal procedures for addressing reincarnated
   carriers including placing them out of service.

4. Work with the National Highway Traffic Safety Administration and
   U.S. Customs and Border Protection to develop and implement a risk-based
   solution, in compliance with the National Traffic and Motor Vehicle Safety
   Act of 1966, to target enforcement against U.S.-domiciled passenger carriers
   whose vehicles do not meet Federal Motor Vehicle Safety Standards.

5. Incorporate National Highway Traffic Safety Administration training modules
   on visually identifying vehicles’ compliance with Federal Motor Vehicle
   Safety Standards into training provided to Federal Motor Carrier Safety
   Administration enforcement officials through the National Training Center.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA a draft of this report for review and comment on
February 24, 2012. We received its technical comments on March 29, 2012, and a
                                                                                16


formal response from the agency on April 12, 2012. FMCSA concurred with all of
our recommendations, and its complete formal response is included as an appendix
to this report.

ACTIONS REQUIRED
FMCSA’s planned actions for all five recommendations are responsive, and its
target action dates are appropriate. In accordance with follow-up provisions in
Department of Transportation Order 8000.1C, we request that FMCSA provide
our office, within 30 days of this report, documentation of the New Applicant
Screening tool enhancements FMCSA reports implementing in December 2011.
We also request that FMCSA provide information demonstrating completion of its
planned actions within 10 days after the action was taken. All five
recommendations will remain open pending receipt of this information.

We appreciate the courtesies and cooperation of the Federal Motor Carrier Safety
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630 or Wendy Harris, Program Director, at
(202) 366-2794.

                                        #

cc: Audit Liaison, FMCSA
    Audit Liaison, NHTSA
    Audit Liaison, OST
    National Transportation Safety Board
                                                                                     17



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work between December 2010 and February 2012 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To assess FMCSA’s efforts to detect and deter reincarnated motor carriers, we
reviewed proprietary documentation of FMCSA’s new applicant screening tool,
observed a demonstration of the tool, and used a statistical sample of 100 of 2,690
carriers to test the data reliability of the new applicant screening tool as well as its
effectiveness in identifying potential reincarnated carriers among new applicants.
In addition, we reviewed the results of FMCSA’s vetting of passenger carriers that
applied for operating authority between January 2003 and August 2009,
particularly regarding the use of the scoring mechanism of the new applicant
screening tool. We also used the new applicant screening tool and FMCSA’s
Motor Carrier Management Information System (MCMIS) database to investigate
possible reincarnations of individual carriers.

To assess FMCSA’s efforts to revise regulations, implement new rulemakings, or
obtain increased statutory authority to strengthen passenger carrier safety, we
interviewed FMCSA officials, gathered available documentation, and reviewed
public testimony on FMCSA’s efforts in these areas. We focused specifically on
how FMCSA administered passenger carrier leasing requirements and the
efficiency with which it revoked the operating authority of reincarnated carriers.
We also coordinated with OIG counsel to develop a legal opinion on FMCSA’s
existing statutory authority in these two areas and reviewed FMCSA’s rulemaking
history and the Report on DOT Significant Rulemakings to assess FMCSA’s past
rulemaking efficiency and history of relevant rulemakings.

To assess FMCSA’s ability to better identify and track those commercial
passenger vehicles that do not comply with Federal vehicle safety requirements,
we interviewed FMCSA, NHTSA, and Customs and Border Protection officials
regarding any training their personnel received or administered to identify non-
Federal Motor Vehicle Safety Standard (FMVSS) compliant passenger carrier
vehicles. We reviewed FMCSA documentation along with the Code of Federal
Regulations to determine which Federal Motor Carrier Safety Regulations
(FMCSR) were cross-listed with FMVSS. In addition, we used MCMIS data to
analyze commercial passenger vehicle inspections to determine whether violations
of FMCSR cross-listed to FMVSS were being detected during roadside vehicle


Exhibit A. Scope and Methodology
                                                                               18


inspections. Some carriers using the vehicles inspected have been identified as
non-passenger carriers. We used the data to determine the geographic distribution
of FMVSS cross listed violations of the FMCSR. We also used the company
profiles in MCMIS and FMCSA’s Compliance Safety Accountability 2010 Safety
Management System database to establish the identity of the carriers with the most
violations.




Exhibit A. Scope and Methodology
                                                                                              19



EXHIBIT B. OVERVIEW OF FMCSA’S IMPLEMENTATION OF
NTSB RECOMMENDATIONS AS OF DECEMBER 2011

NTSB Recommendation                             FMCSA Implementation Actions
H-09-032: Update and redistribute               • FMCSA plans to complete the research on
FMCSA's "Driver Fatigue Video" to include         motor coach operator fatigue by the end of
current information on fatigue and fatigue        calendar year 2011 and update the video by
countermeasures and make the video                summer 2012.
available electronically. Implement a plan to   • This recommendation was not included in the
regularly update and redistribute the video.      recommendation responses Congress asked
(NTSB Classified as: Open - Acceptable            OIG to review.
Response)
H-09-033: Revise 49 C.F.R. Part 376 to          • FMCSA initiated a rulemaking in September
require that passenger motor carriers are         2011 to seek comment on leasing regulations
subject to the same limitations on the            for passenger carriers.
leasing of equipment as interstate for-hire
motor carriers of cargo. (NTSB Classified
as: Open - Acceptable Response)
H-09-034: Seek statutory authority to deny      • FMCSA published a notice of proposed
or revoke operating authority for commercial      rulemaking in December 2011 that proposed
interstate motor carriers found to have           new regulations for putting reincarnated
applications for operating authority (OA) in      carriers out of service and a Federal standard
which applicant failed to disclose any prior      for using substantial continuity to determine
operating relationship with another motor         whether a carrier is a reincarnation of a prior
carrier, operating as another motor carrier,      entity.
or being previously assigned a U.S.
Department of Transportation number.
(NTSB Classified as: Open - Acceptable
Response)
H-09-035: Apply the evasion detection           • FMCSA applied its passenger carrier vetting
algorithm process against all interstate          process, including the New Applicant
passenger carriers that obtained FMCSA            Screening tool, to passenger carriers that
operating authority, after the New Entrant        applied for operating authority after 2003 but
Safety Assurance Program began in 2003            before the New Entrant Safety Assurance
but before the program began vetting those        Program began in 2008.
carriers, to verify that those new entrant      • FMCSA further evaluated the 2003 to 2008
carriers do not have a concealed history of       applicants with scores of 90 and above—less
poor safety management controls because           than 9 percent of the suspect matches. Of
they were able to reenter interstate              these, four were investigated and one was
commerce undetected as reincarnated               prosecuted as a reincarnated carrier.
carriers. (NTSB Classified as: Closed -         • FMCSA no longer uses the scoring
Acceptable Action)                                mechanism that was used to vet the 2003 to
                                                  2008 population of passenger carrier
                                                  applicants, because it determined the scores
                                                  were unreliable.
                                                • FMCSA currently applies the passenger
                                                  carrier vetting process, including the scoring
                                                  tool, to all applicants but evaluates every
                                                  carrier with a match, regardless of score.



Exhibit B. O ver vi ew of FMCS A’ s Implementation of NTSB
Recommendations as of December 2011
                                                                                                20



NTSB Recommendation                              FMCSA Implementation Actions
H-09-036: Establish a requirement to review      • No action until H-09-033 rule is in place.
all passenger carrier lease agreements
during new entrant safety audits and
compliance reviews to identify and take
action against carriers that have lease
agreements that result in a loss of
operational control by the certificate holder.
(NTSB Classified as: Open - Acceptable
Response)
H-09-037: Assist NHTSA in developing a           • FMCSA has not implemented or developed a
Web-based database of FMVSS-compliant              Web-based database of FMVSS-compliant
passenger-carrying commercial motor                passenger carrying commercial motor
vehicles that can be utilized by Federal,          vehicles.
State, and local enforcement inspection          • FMCSA determined that the FMVSS critical to
personnel to identify non-FMVSS-compliant          the operational safety of commercial motor
passenger-carrying commercial motor                vehicles and can be checked at the roadside
vehicles so that these vehicles (other than        are cross-referenced in the Federal Motor
exempted vehicles) are placed out of               Carrier Safety Regulations, which are
service and cease operating in the United          enforced through the inspection program.
States. Implement a process to periodically      • FMCSA believes that the absence of a
update this database. (NTSB Classified as:         FMVSS label does not necessarily suggest
Open - Unacceptable Response)                      that a vehicle is unsafe.
                                                 • The meeting FMCSA requested was held with
                                                   all respective parties (NTSB, NHTSA, and
                                                   CBP) to clarify the intent and to outline
                                                   alternatives to this recommendation.
H-09-038: Require that Federal and State         • No action due to alternative action proposed
inspectors utilize the database requested in       by FMCSA for H-09-037.
Recommendation H-09-37 during both
roadside and compliance review inspections
of passenger-carrying commercial motor
vehicles to identify and place out of service
non-FMVSS-compliant vehicles. (NTSB
Classified as: Open - Unacceptable
Response)
H-09-039: Institute a requirement for            • FMCSA believes there are no discernible
Federal and State enforcement officials to         safety benefits associated with a requirement
obtain training on a procedure to physically       to obtain FMVSS training on a procedure for
inspect passenger-carrying commercial              physical inspections of passenger commercial
motor vehicles for a FMVSS compliance              vehicles.
label, and work with the Commercial              • FMCSA has not implemented any additional
Vehicle Safety Alliance to develop and             training or been trained by NHTSA's
provide this training. (NTSB Classified as:        importation officials.
Open - Unacceptable Response)




Exhibit B. O ver vi ew of FMCS A’ s Implementation of NTSB
Recommendations as of December 2011
                                                                                                21



 NTSB Recommendation                              FMCSA Implementation Actions
 H-09-040: Require that passenger motor           • FMCSA does not intend to include this
 carriers certify on their OP 1(P) forms            certification on its forms for U.S.-domiciled
 (Application for Motor Passenger Carrier           motor carriers.
 Authority) and initial MCS-150 form (Motor       • Motor carriers domiciled in the United States
 Carrier Identification Report [Application for     or Canada must meet FMVSS at the time of
 U.S.DOT Number]) and subsequent                    manufacture and have compliance labels.
 required biennial submissions that all           • Mexican and non-North American-domiciled
 vehicles operated, owned, or leased per trip       carriers have forms to ensure that all vehicles
 or per term met the FMVSS in effect at the         operating in the United States were
 time of manufacture. (NTSB Classified as:          manufactured or have been retrofitted in
 Open - Unacceptable Response)                      compliance with FMVSS.
 H-09-041: Seek statutory authority to            • FMCSA currently has statutory authority to
 suspend, revoke, or withdraw a motor               take action against motor carriers operating
 carrier’s operating authority upon                 unsafe vehicles.
 discovering the carrier is operating any non-    • FMCSA believes a FMVSS certification label
 FMVSS-compliant passenger-carrying                 requirement does not ensure the safe
 commercial motor vehicles, a violation of          operation of a commercial motor carrier.
 the FMVSS-compliant certification
 requested in Recommendation H-09-40.
 (NTSB Classified as: Open - Unacceptable
 Response)
Source: OIG generated table




Exhibit B. O ver vi ew of FMCS A’ s Implementation of NTSB
Recommendations as of December 2011
                                                        22



EXHIBIT C. FMCSA'S PASSENGER CARRIER VETTING
PROCESS




Source: OIG generated flow chart




Exhibit C. FMCS A's Passenger Carrier Vetting Process
                                                                      23


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Wendy Harris                            Program Director

Regan Maund                             Project Manager

Peter Barber                            Analyst

Michael English                         Analyst

Michelle Starkey                        Auditor

Petra Swartzlander                      Statistician

William Savage                          Information Technology Specialist

Megha Joshipura                         Statistician

Frederick Swartzbaugh                   Associate Counsel

Harriet Lambert                         Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                      24


           APPENDIX. AGENCY COMMENTS


                                                                  Memorandum
           U.S. Department of
           Transportation

           Federal Motor Carrier
           Safety Administration

Subject:   INFORMATION: Response to OIG Draft                   Date:      April 12, 2012
           Report on FMCSA Actions To Improve
           Passenger Carrier Oversight

From       Anne S. Ferro                                        Reply to   MC-P
                                                                Attn: of
           Administrator

To:        Joseph W. Comé
           Acting Assistant Inspector General for
              Highway and Transit Audits

           The motorcoach industry provides an estimated 750 million passenger trips each year and is
           among the safest modes of transportation. However, recent tragic crashes further emphasize the
           importance of protecting the public through robust regulations, effective oversight, and zero
           tolerance motor carrier safety enforcement policies. The Federal Motor Carrier Safety
           Administration (FMCSA) is committed to providing effective oversight of the motor carrier
           industry and has taken strong actions in an effort to further improve safety. Specifically, the
           Agency has raised the bar to entry, has cracked down on unsafe passenger carriers through
           surprise destination inspections, has initiated widespread compliance reviews and enforcement
           actions against passenger carriers, and has sought enhanced regulatory and enforcement
           authorities from Congress through its reauthorization technical assistance.

           FMCSA Is Taking Strong Action to Address Motorcoach Safety

           Over the past 5 years, FMCSA has doubled the number of passenger carrier inspections and
           compliance reviews of the Nation's approximate 4,000 interstate motorcoach companies.
           Motorcoach inspections have increased nearly 100 percent, from 12,991 in 2005 to 25,705 in
           2010, while compliance reviews are up 128 percent, from 457 in 2005 to 1,042 in 2010. The
           FMCSA has also initiated a greater number of enforcement cases against unsafe passenger
           carriers under the current administration. Between 2000 and 2009, FMCSA issued a total of 14
           imminent hazard orders, placing unsafe carriers out of service. In comparison, during the last 2
           years alone, FMCSA has already issued another 14 imminent hazard orders to put carriers that
           pose an immediate safety risk to passengers out of service.

           The Agency and our State and local law enforcement partners carry out passenger carrier safety
           strike forces throughout the country, specifically in Texas, California, Delaware, New Jersey,
           Pennsylvania, North Carolina, and Washington State, to name a few. These strike forces have



           Appendix. Agency Comments
                                                                                            25


taken place at destinations like ball parks, theme parks, and National parks; and they will
continue in years to come. The FMCSA also banned texting by drivers of commercial vehicles,
including motorcoach drivers, and issued a rule that prohibits commercial drivers from reaching
for, holding or dialing a cell phone while operating a commercial motor vehicle. Drivers who
violate these restrictions face federal civil penalties of up to $2,750 for each offense and
disqualification of their commercial driver's license for multiple offenses.

FMCSA Provides Consumers with Extensive Safety Information

Using multiple types of media, FMCSA is taking extensive action to provide the public with
information on the safety of passenger carriers. Recently, FMCSA made new information
resources available to the public called "Think Safety: Every Trip, Every Time." This
information includes a new consumer checklist to help passengers and trip organizers assess a
bus company's safety record, safety rating, and U.S. DOT operating authority and insurance
before buying an individual ticket or hiring a bus company for group travel. The Agency also
offers safety information about individual passenger carriers on its Web site. In addition,
FMCSA recently launched a SaferBus iPhone/iPad application that empowers consumers with
quick and easy access to a motorcoach company's safety record. Finally, FMCSA encourages
consumers to report any unsafe motorcoach company, vehicle, or driver to the Agency through a
toll free hotline or on-line through FMCSA's National Consumer Complaint Database.

FMCSA Seeking Additional Safety Authority

To further strengthen passenger carrier safety, the Department has asked Congress to provide
FMCSA with greater authority to pursue unsafe "reincarnated" passenger carriers by establishing
a uniform Federal standard to help determine whether a new carrier is a reincarnation of an old,
unsafe carrier. As discussed in the OIG report, the practice of unsafe carriers reincarnating, or
transforming into “chameleon carriers,” to continue operations is unacceptable. The Agency is
doing everything within its existing legal authority to keep one step ahead of these illegal actors
through our vetting program. The Agency has initiated rulemakings to create bus leasing
regulations and establish a process for putting reincarnated carriers out of service. The
Department is also seeking statutory authority to implement new procedures that would allow
FMCSA to conduct passenger carrier safety inspections at additional en route locations and to
require new motorcoach companies to undergo a pre-authority safety audit before receiving
operating authority. Further, the Department is seeking strong enforcement authority by raising
the penalty for operating illegally or without authority from $2,000 to $25,000 per violation.

The FMCSA continues to make improvements to passenger carrier safety. Working with
Congress, the bus industry, oversight organizations, and an empowered and informed American
public, we are using all available avenues to make passenger carrier travel as safe as possible.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Strengthen the Federal Motor Carrier Safety Administration’s ability to
identify and take action against reincarnated carriers by refining the new applicant screening tool
to provide risk-based targeting of operating authority applicants that are likely to be
reincarnations of suspect passenger carriers.



Appendix. Agency Comments
                                                                                           26


Response: Concur. The New Applicant Screening (NAS) tool is used to match information in
operating authority applications against information related to carriers across the entire
population of motor carriers currently or previously registered with the Agency. The FMCSA
expanded the NAS tool to include a check against the Agency’s entire past and present carrier
population. The updated NAS now provides the ability to search for specific carriers and
identify relationships to other past and present carriers. These enhancements were implemented
in December 2011.

Furthermore, FMCSA is currently developing a plan to enhance its ability to identify carriers that
try to re-enter the industry as a new entrant carrier seeking a USDOT identification number and
operating authority, and to prevent those that are a continuation of unsafe motor carriers from
establishing operations under a new name and USDOT number. One element of the plan
includes developing a risk-based algorithm to enhance the vetting process. The FMCSA expects
to complete the development of the risk-based algorithm by February 2013. While FMCSA is
working to enhance the vetting process, the Agency will continue reviewing all passenger and
household goods carriers seeking operating authority. Further, in order to take meaningful and
effective action against reincarnated carriers as described above, FMCSA is also seeking through
its reauthorization technical assistance enhanced statutory authority to enable the Agency to
detect, deter, and implement vigorous enforcement actions against carriers that seek to
reincarnate.

Recommendation 2: Publish a final rule on passenger carrier leasing with requirements similar
to those for property carriers.

Response: Concur. In September 2011, the Agency initiated a rulemaking that would create
vehicle lease and interchange regulations for passenger-carrying vehicles subject to the Agency’s
safety oversight. The Agency has discovered through its passenger bus crash investigations and
roadside inspections a need for better documentation of bus lease and interchange arrangement
or agreements. Further, the National Transportation Safety Board has recommended that
FMCSA require documentation of bus leases and interchanges based on a crash investigation in
2008 near Victoria, Texas. The Agency anticipates issuing a proposed rule in 2012 and a final
rule in 2013.

Recommendation 3: Publish a final rule establishing Federal procedures for addressing
reincarnated carriers including placing them out of service.

Response: Concur. In December 2011, the Agency published a Notice of Proposed Rulemaking
in the Federal Register to amend the Agency’s Rules of Practice for Motor Carrier, Intermodal
Equipment Provider, Broker, Freight Forwarder, and Hazardous Materials Proceedings in three
respects. Through the rulemaking process, the Agency proposes to clarify that paying the full
proposed civil penalty in an enforcement proceeding, either in response to a Notice of Claim or
later in the proceeding, would not allow respondents to unilaterally avoid an admission of
liability for the violations charged. The FMCSA also proposes to establish procedures for
issuing out of service orders to motor carriers, intermodal equipment providers, brokers, and
freight forwarders it determines are reincarnations of other entities with a history of failing to
comply with statutory or regulatory requirements. These procedures would provide for
administrative review before the out of service order takes effect. Further, the Agency proposes




Appendix. Agency Comments
                                                                                            27


procedures for consolidating Agency records of reincarnated companies with their predecessor
entities. The Agency anticipates issuing the final rule by June 2012.

Recommendation 4: Work with the National Highway Traffic Safety Administration and U.S.
Customs and Border Protection to develop and implement a risk-based solution, in compliance
with the National Traffic and Motor Vehicle Safety Act of 1966, to target enforcement against
U.S.-domiciled passenger carriers whose vehicles do not meet Federal Motor Vehicle Safety
Standards.

Response: Concur. The Agency will begin checking vehicles operated by U.S.-domiciled
carriers during roadside inspections to identify carriers operating commercial vehicles that do not
display a Federal Motor Vehicle Safety Standards (FMVSS) certification label affixed by the
vehicle manufacturer. The Agency would then share this information with the National Highway
Traffic Safety Administration (NHTSA) and U.S. Customs and Border Protection, for
appropriate action concerning the potential improper importation into the U.S. of vehicles that
may not comply with the FMVSSs in effect on the date of manufacture. By December 2012, the
Agency will develop an enforcement policy that will request that FMCSA enforcement officials
inspect passenger carrying commercial motor vehicles operated by U.S.-domiciled motor carriers
for FMVSS certification labels. The Agency’s long-term goal, depending on the results of the
inspections, would be to consider a notice-and-comment rulemaking proceeding to require that
U.S.-domiciled motor carriers be required to ensure their vehicles display an FMVSS
certification label. This would help to ensure that only vehicles certified to comply with all
applicable FMVSS by their original manufacturer, or brought into compliance with those
standards under NHTSA’s Registered Importer program, are used by U.S.-domiciled carriers.

Recommendation 5: Incorporate National Highway Traffic Safety Administration training
modules on visually identifying vehicles’ compliance with Federal Motor Vehicle Safety
Standards into training provided to Federal Motor Carrier Safety Administration enforcement
officials through the National Training Center.

Response: Concur. The Agency will incorporate the NHTSA training modules on inspecting
vehicles for the FMVSS certification label in the inspector training program to support
implementation of the enforcement policy (mentioned in the response to recommendation 4)
concerning the inspection of vehicles operated by U.S.- domiciled carriers by December 2012.
The Agency’s National Training Center will provide the training to FMCSA and State
enforcement personnel.




Appendix. Agency Comments
